DOE/IG-0440




         AUDIT
        REPORT

                                WASTE TREATMENT PLANS AT
                                    THE IDAHO NATIONAL
                                     ENGINEERING AND
                                ENVIRONMENTAL LABORATORY




                                          FEBRUARY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                              February 4, 1999


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "Waste Treatment Plans at
                      the Idaho National Engineering and Environmental Laboratory"

BACKGROUND

The Idaho National Engineering and Environmental Laboratory (Laboratory) stores nearly 65,000 cubic
meters of waste generated on site or brought to the State of Idaho (Idaho) from Department of Energy
(DOE) sites across the country. Because Idaho
was concerned that the State might become a "de facto" permanent repository, the Governor of Idaho
sought and received an injunction from the Federal courts which prohibited future waste shipments to Idaho.
The injunction also affected the Navy's shipment of spent nuclear fuel into the Laboratory. Due to concerns
about the injunction's impact, DOE and the Navy negotiated with Idaho and signed the Idaho Settlement
Agreement (Agreement) on October 17, 1995.

Under the Agreement, DOE must remove all stored waste from Idaho by December 31, 2018, at the latest.
There were additional requirements for construction of a private waste treatment facility (Treatment
Facility). In December 1996, DOE awarded a contract for construction of the new Treatment Facility,
nearly 6 months ahead of the required contract award date of June 1, 1997; the Agreement also required the
Treatment Facility to begin operations by March 31, 2003. Likewise, the Agreement mandated some
milestones for shipment of the first 3,100 cubic meters of waste from Idaho to the Waste Isolation Pilot Plant
(WIPP). The first portion of the 3,100 cubic meters of waste must be shipped by April 30, 1999, and all
3,100 cubic meters must be shipped by December 31, 2002. The purpose of our audit was to determine
whether it is in the best interest of the Government to defer processing the 3,100 cubic meters of waste until
the new Treatment Facility can do so.

RESULTS OF AUDIT

Our analysis showed that waiting until the Treatment Facility could process the 3,100 cubic meters of mixed
waste would be more economical and reduce the environmental risks to Laboratory employees. By deferring
processing until the new Treatment Facility is operational, DOE could save $66 million. Therefore, a
compromise between DOE and Idaho officials allowing such a deferral would be in the best interest of the
Government. We recommended that DOE initiate discussions with Idaho to negotiate such a deferral.

MANAGEMENT REACTION

While management generally agreed with the report and its contents, it did not agree to implement the
recommendation. Therefore, we consider management's response to be a non-concurrence.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
WASTE TREATMENT PLANS AT THE IDAHO NATIONAL
ENGINEERING AND ENVIRONMENTAL LABORATORY

 TABLE OF
 CONTENTS

                 Overview

                 Introduction and Objective .............................................. 1


                 Conclusions and Observations ....................................... 2


                 Modification Of Agreement Milestone Supportable


                 Details of Finding............................................................ 3


                 Recommendation and Comments................................... 6


                 Appendix


                 Scope and Methodology ................................................. 8
OVERVIEW
INTRODUCTION AND   The Idaho National Engineering and Environmental Laboratory
                                                                              1
OBJECTIVE          (Laboratory) stores nearly 65,000 cubic meters of waste generated on
                   site or brought to the State of Idaho (Idaho) from Department of
                   Energy (DOE) sites across the country since 1970. This represents
                   approximately 62 percent of the stored waste that DOE plans to ship
                   and permanently dispose of at the Waste Isolation Pilot Plant (WIPP)
                   in Carlsbad, New Mexico. Although WIPP was scheduled to begin
                   receiving waste as early as 1988, its official opening date has been and
                   continues to be delayed. Idaho, therefore, became concerned that the
                   Laboratory, although originally intended as a temporary storage facility,
                   might become a "de facto" permanent repository. Consequently, the
                   Governor of Idaho acquired an injunction to prohibit future waste
                   shipments from entering Idaho. The injunction also affected the Navy's
                   shipment of spent nuclear fuel into the Laboratory.

                   Because of concerns about the injunction's impact on shipments of waste
                   and spent nuclear fuel, DOE and the Navy negotiated with Idaho and
                   signed the Idaho Settlement Agreement (Agreement) on October 17,
                   1995. As a result, the injunction was lifted; however, the Agreement
                   imposed specific milestones on DOE for removing the waste from the
                   State. Specifically, all waste must be removed from Idaho by December
                   31, 2015, but not later than December 31, 2018, the date WIPP was
                   originally scheduled to close. Additional milestones included:

                            • awarding a contract for construction and operation of a
                              private waste treatment facility by June 1, 1997;
                            • shipping the first load of waste from Idaho by April 30, 1999;
                            • shipping at least 3,100 cubic meters of waste out of Idaho
                              by December 31, 2002; and,
                            • beginning operation of the waste treatment facility by March
                              31, 2003.

                   In December 1996, DOE met the first milestone by awarding a fixed-
                   price contract to a private company to construct and operate the
                   Advanced Mixed Waste Treatment Facility (Treatment Facility)--

                   ______________________________
                   1
                     For purposes of this report, "waste" is defined as the stored transuranic, alpha
                   contaminated low-level, and alpha contaminated low-level mixed waste.




Page 1                                    Waste Treatment Plans At The Idaho National
                                          Engineering And Environmental Laboratory
                  nearly 6 months ahead of schedule. DOE has demonstrated its
                  commitment to meet the second milestone by spending $559,000 to
                  characterize and certify the first shipment of 42 drums of non-mixed
                  transuranic waste.

                  Because the Treatment Facility would not be available to meet the 3,100
                  cubic meter milestone by December 31, 2002, DOE decided to dispose
                  of untreated waste using the characterization process that
                  was in place in 1989, and adapting it to meet new characterization
                  requirements. This process was augmented in May 1998 to include
                  additional characterization analysis required to certify that the initial
                  shipment to WIPP contained only non-mixed transuranic waste.

                  The purpose of the audit was to determine whether it is in the best
                  interest of the Government to defer processing the 3,100 cubic meters of
                  waste until the new Treatment Facility can do so.

                  Our analysis showed that waiting until the Treatment Facility can
CONCLUSIONS AND   process the 3,100 cubic meters of waste would be more economical and
OBSERVATIONS      reduce the environmental risks to Laboratory employees. Therefore, a
                  compromise between DOE and Idaho officials allowing such a deferral
                  would be in the best interest of the Government.

                  In our opinion, the audit identified issues that management should
                  consider when preparing its yearend assurance memorandum on internal
                  controls.




                                                   _____(Signed)__________
                                                   Office of Inspector General




Page 2                                Waste Treatment Plans At The Idaho National
                                      Engineering And Environmental Laboratory
MODIFICATION OF AGREEMENT MILESTONE SUPPORTABLE
Treatment Facility      If processing the 3,100 cubic meters of waste was deferred until the
Provides Greater        Treatment Facility was operable, DOE could save approximately $66
Benefit Than Existing   million, characterize the waste in a safer and more efficient manner, treat
Process                 the waste, and still meet the 2015 deadline established in the Agreement.
                        The contracted cost for the Treatment Facility to characterize, treat, and
                        prepare the waste for shipment is $4,647
                        per cubic meter as compared to $25,200 per cubic meter for simply
                        characterizing the waste using the existing process. The Treatment
                        Facility would also require less movement of the waste, reduce
                        the waste volume by 65 percent, and provide for more secure waste
                        handling. Thus, the chance of an accidental exposure would be reduced.
                        Finally, since the Treatment Facility was designed for production
                        purposes, it would take only 6 months to treat the 3,100 cubic meters
                        instead of the 5 years currently planned. Under full operation, the
                        Treatment Facility would be able to process all of the waste--including
                        the 3,100 cubic meters--by 2015.

                                               Treatment Facility Operations

                        As required in the Agreement, DOE awarded a fixed-price contract for
                        the construction and operation of the Treatment Facility to remove the
                        65,000 cubic meters of waste from the Laboratory by 2015. While the
                        Treatment Facility will not be available to treat waste until March 2003,
                        DOE has stated it will be a cost effective and environmentally safe
                        method of removing the waste from the Laboratory. The terms of the
                        contract established a unit price cost of $4,647 per cubic meter. This
                        price includes all activities necessary to retrieve, characterize, treat, and
                        prepare the waste for final disposal at WIPP. At this price, DOE could
                        save $64 million by deferring the milestone until the Treatment Facility
                        can process the 3,100 cubic meters. The reduction in waste volume
                        could also reduce the shipping costs for the 3,100 cubic meters by
                        approximately another $2 million.

                        The Treatment Facility will also reduce DOE's environmental, safety and
                        health risks to Laboratory employees, as well as the general public.
                        Specifically, because the Treatment Facility is to be constructed adjacent
                        to the waste storage facilities, the process will require little movement of
                        waste during retrieval, characterization, and treatment. Further, by
                        treating the waste thermally and encapsulating the waste in




Page 3                                                                        Details Of Finding
         either a grouted or vitrified form, the Treatment Facility will be capable
         of reducing waste volume by up to 65 percent. In its evaluation of
         privatization studies, DOE determined that treating the waste prior to
         disposal would stabilize the waste and thus decrease environmental and
         health risks to workers and the public, assuming adequate worker
         protection standards and criticality controls are maintained. In vitrified
         or grout form, an accidental release to the environment would be less
         likely, making it safer for long-term or permanent storage.

         Finally, the Treatment Facility is being designed as a production rather
         than an experimental facility and will be capable of treating up to 7,000
         cubic meters of waste per year when fully operational. Although the
         Treatment Facility is not scheduled to be operational until March of
         2003, it will be able to process all of the Idaho waste--including the
         3,100 cubic meters--ahead of the 2015 milestone required by the
         Agreement.

                                 Characterization Process

         Because it wanted to meet the 3,100 cubic meter milestone date of
         December 31, 2002, DOE decided to dispose of untreated waste for an
         estimated cost of $25,200 per cubic meter by using a characterization
         process implemented in 1989, and adapting it to meet current
         characterization requirements. In this process, all drums being sent to
         WIPP will be non-intrusively characterized at Laboratory facilities.

         In addition, a sample of drums will also be intrusively characterized to
         validate the results of the non-intrusive characterization. Because
         the Laboratory does not have facilities capable of performing
         intrusive characterization, the waste will be sent to Argonne National
         Laboratory–West, approximately 15 miles away from the storage
         facilities. The entire process for waste to be intrusively characterized,
         sampled, analyzed, and made ready for WIPP can take up to 6 months
         per drum. However, the waste still remains in an untreated form for
         transportation to, and final disposal at, WIPP. Therefore, the process
         for removing the 3,100 cubic meters to meet the Agreement's December
         31, 2002, milestone will be costly and create otherwise avoidable
         environmental, health and safety risks to Laboratory employees.




Page 4                                                        Details Of Finding
DOE Negotiated The      While DOE's effort to facilitate removal of the 3,100 cubic meters of
Idaho Agreement         waste from Idaho by December 31, 2002, is laudable, it agreed to the
Without Adequate Cost   interim milestone without adequate knowledge and consideration of the
Or Program              cost. DOE was unable to provide any substantial contemporaneous
Considerations          documentation that it might have used to support its decision to agree to
                        ship 3,100 cubic meters of waste to WIPP prior to the operation of the
                        Treatment Facility. Further, the information DOE Headquarters used to
                        support the negotiations was not originally developed for that purpose.
                        Although this information indicated that the cost to meet the milestone
                        would be $20.7 million, an analysis performed within a month after the
                        Agreement was signed showed that the cost could be up to eight times
                        higher. Even though nearly all DOE officials we spoke to agreed that it
                        was not anticipated that the cost of complying with the 3,100 cubic
                        meter milestone would be so significant, DOE has not approached Idaho
                        officials to discuss this matter. It appears, therefore, DOE would rather
                        proceed with the characterization process than attempt to amend the
                        Agreement and possibly save $66 million.

Changes In Regulatory   When it entered into the Agreement, DOE believed that the 3,100 cubic
                        meter milestone was achievable because it had already characterized
Requirements Continue
                        approximately 3,100 cubic meters of waste in accordance with Revision
To Escalate Waste
                        3 of the WIPP Waste Acceptance Criteria (WAC). However, changes
Processing Costs
                        to the requirements have increased cost. Shortly after the Agreement
                        was signed, Revision 5 of the WAC was issued. This change required
                        DOE to perform intrusive characterization and sampling of waste
                        containers, including the 3,100 cubic meters previously certified. To
                        meet this sampling requirement for the 3,100 cubic meters of mixed
                        waste, DOE would have to open and intrusively characterize nearly
                        600 drums at a cost of about $16 million.

                        In addition, recent regulatory activities will only compound this problem.
                        In May 1998, New Mexico State regulators issued for comment the
                        draft Resource Conservation and Recovery Act (RCRA) Part B permit,
                        which would allow DOE to permanently dispose of mixed waste at
                        WIPP. According to DOE officials, the draft permit could require DOE
                        to perform intrusive characterization and RCRA analysis on nearly twice
                        the number of sample drums currently planned for. Not only would this
                        regulatory requirement increase the time needed to certify the waste for
                        shipment to WIPP, it could further increase DOE's cost of meeting the
                        3,100 cubic meter milestone. These




Page 5                                                                     Details Of Finding
                            modifications, however, will have less impact on the Treatment Facility
                            operations since the current plan for the treatment process already
                            includes opening a large majority of the waste containers.

Deferring Processing Will   Deferring processing of the 3,100 cubic meters until the Treatment
Reduce Costs While          Facility becomes operational would significantly reduce costs while
Meeting Final Removal       still enabling DOE to meet the final removal date of 2015. Further,
Date                        spending an additional $66 million to meet the 3,100 cubic meter
                            milestone of December 31, 2002, will provide little benefit. For
                            example, it will complete the removal of only 5 percent of the waste
                            from Idaho just 3 months before the new facility is operational. Using
                            these funds to meet the milestone may jeopardize other environmental
                            and site closure projects at the Laboratory. In addition, deferring the
                            processing of waste will not significantly impact final removal of waste
                            from Idaho. Processing capabilities of the Treatment Facility could treat
                            in 6 months what it will take the existing process 5 years to characterize.

                            We recommend that the Acting Deputy Assistant Secretary for Waste
RECOMMENDATION              Management, in conjunction with the Idaho Operations Office, initiate
                            discussions with the State of Idaho to negotiate a deferral on processing
                            the 3,100 cubic meters of waste until the new Treatment Facility can
                            process it.

                            Management stated that it was in general agreement with the contents of
                            the report and its recommendation. Further, it had been communicating
MANAGEMENT                  regularly with Idaho on the progress of the Treatment Facility.
REACTION                    However, management stated that there are a number of substantive
                            issues that could arise in negotiating with Idaho on a deferral of the
                            3,100 cubic meter milestone. For example, Idaho may be unwilling to
                            relax any requirement for removing radioactive waste from the State and
                            could add new milestones for high-level waste and spent nuclear fuel.
                            Further, Idaho could also add fines and penalties for all of the
                            Agreement milestones. Thus, the overall cost impact of the milestone
                            deferral is not clearly known at this time.




Page 6                                                     Recommendation And Comments
AUDITOR COMMENTS   Although DOE management stated that it was in general agreement with
                   the report contents and recommendation, in our opinion its failure to act
                   makes its comments non-responsive to the recommendation.
                   Specifically, DOE asserted that it was regularly informing Idaho on the
                   progress of the Treatment Facility and would continue to do so. This
                   communication provides an ideal means for DOE to approach
                   discussions of a deferral of the 3,100 cubic meter milestone. However,
                   thus far DOE has not attempted to discuss this matter with Idaho.
                   Therefore, in our opinion, DOE’s expressed concerns are only
                   speculative at this point. This audit projects that deferral of processing
                   the waste will save DOE $66 million while still meeting the final 2015
                   deadline. Any offsetting costs from potential new fines and penalties
                   could only be determined through negotiations. Until DOE approaches
                   Idaho, it cannot make an informed decision on whether deferral is in the
                   best interest of the Government.




Page 7                                             Recommendations And Comments
Appendix 1
SCOPE         The audit was performed from January 13 through September 30,
              1998, at DOE Headquarters in Washington, D.C.; the Idaho Operations
              Office and the Laboratory in Idaho Falls, Idaho; and the Carlsbad Area
              Office in Carlsbad, New Mexico. The audit included a review of
              documentation associated with the Laboratory's Transuranic Waste
              Program and the Treatment Facility from May 1995 through June 1998.

METHODOLOGY   To accomplish the audit objective, we:

                     • interviewed key DOE management responsible for initiating
                       and negotiating the Agreement with the State of Idaho;
                     • reviewed the negotiation files used to support the
                       Agreement;
                     • reviewed applicable DOE publications, including DOE's
                       Evaluation of Feasibility Studies for Private Sector
                       Treatment of Alpha and TRU Mixed Wastes and
                       The National TRU Waste Management Plan;
                     • evaluated the Laboratory's methods for characterizing and
                       certifying mixed waste shipments to WIPP;
                     • interviewed DOE and contractor personnel responsible for
                       managing the mixed waste project at the Laboratory; and,
                     • reviewed the DOE contract for treatment of waste in the
                       Treatment Facility and established Project Management Plans
                       associated with the project.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of management controls over waste
              treatment programs managed by DOE. Because our review was limited,
              it would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. Our review did not rely
              on computer processed data.

              An exit conference was waived by management.




Page 8                                                     Scope And Methodology
                                                                            Report No. DOE/IG-0440


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date_________________________________

Telephone________________________________Organization___________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                        following alternative address:


               U.S. Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
